 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




QUESTIONABLE MEDICARE PAYMENTS

    FOR WOUND CARE SUPPLIES





         J
                    .   JUNE GIBBS BROWN

             $
         #
         <              Inspector General
         !2
          ‘3
           %++/            OCTOBER 1995
             %d~a
             >               03-94-00790
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by four OIG operating components: the Office of Audit Services, the
Office of Investigations, the Office of Civil Fraud and Adminsitrative Adjudicationand the
Office of Evaluation and Inspections. The OIG also informs the Secretary of HHS of program
and management problems and recommends courses to correct them.

                             OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                             OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                   OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Robert A. Vito, Regional Inspector General.

PHILADELPHIA REGIONAL STAFF                           HEADQUARTERS STAFF

Robert A. Baiocco, Program Analyst                    Stuart R. Wright, Program Specialist

Linda M. Ragone, Program Analyst                      Brian P. Ritchie, Technical Support Staff

Cynthia Hansford, Program Assistant                   Barbara Tedesco, Technical Suppoti Staff

Neil Montovani, Intern

Won Jong Oh, Intern

Emily Tseng, Intern



To obtain a copy of this repo~   please call the Philadelphia Regional Office at (800) 531-9562.
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




QUESTIONABLE MEDICARE PAYMENTS
    FOR WOUND CARE SUPPLIES
              EXECUTIVE                          SUMMARY

PURPOSE

This report identifies questionable billing practices for wound care supplies under
Medicare Part B.

BACKGROUND

Wound care supplies are protective covers or fillers that treat openings on the body
caused by surgical procedures, wounds, ulcers, or burns. The Health Care Financing
Administration (HCFA) reimburses for wound care supplies under Medicare Part A
through its payments to nursing homes and home health agencies and Medicare Part
B through its payments to suppliers. The HCFA broadened its coverage policy on
March 30, 1994, allowing payment for secondary as well as primary dressings and
including wound treatments by non-physicians.

The HCFA contracted four DME Regional Carriers (DMERCS) starting October 1993
to process wound care supply claims. In June 1994, reimbursements for these supplies
were based on a fee schedule and the number of wound care supply codes increased
from less than 20 to over 60. The DMERCS revised their guidelines and requested
comments in January 1995. These guidelines clarify utilization and medical necessity
issues. The effective date for implementing the revised guidelines is October 1, 1995.

This inspection was conducted as part of Operation Restore Trust, a pilot program
that coordinates Federal, State, and local anti-fraud activity in California, Florida, New
York, Illinois, and Texas. The program will target abuses in home health agencies,
nursing facilities, and durable medical equipment, including wound care supplies.

We selected claims for a 1 percent sample of beneficiaries who received wound care
supplies between June 1994, the start of fee schedule reimbursements, and February
1995. We applied the proposed DMERC draft guidelines to these claims to identify
questionable billing practices. Lastly, we quantified the potential impact of
questionable billing practices and identified potentially abusive suppliers.

FINDINGS

Questionable paymentsof woundcare suppliesmayaccountfor as muchas two-thirds
of the $98 miUion in Medicare allowances from June 1994 through February 1995.

Four supplies, hydrogel wound filler, tape, a hydrogel dressing wound cover, and a
foam dressing wound cover, account for almost half of the excessive utilization. We
found excessive utilization in all groups of wound care products. The DMERC D
found similar abuses in its detailed review of wound care claims.


                                             i
Activity is concentrated in States, suppliers, place of service, and one carrier.

Almost two-thirds of excessive wound care payments was found in eight States. These
States are Puerto Rico, Indiana, New York, California, Illinois, Tennessee, Florida,
and Louisiana. The five Operation Restore Trust States account for over one-third of
the questioned amounts. Three-quarters of excessive payments in our sample were
made to 48 suppliers which represent 7 percent of the suppliers in our sample. Less
than 40 percent of beneficiaries resided in skilled nursing or nursing facilities but these
beneficiaries received over 70 percent of wound care benefits. The DMERC C
allowed almost twice the national average per beneficiary and was responsible for over
40 percent of questionable wound care payments.

The HCFA and DMERCS have taken corrective actions to address wound care abuses
and continue to explore others.

The DMERCS, working with the HCF~ published a draft policy to clarify wound care
coverage to take effect October 1, 1995. They have also identified suppliers
responsible for questionable billing practices, some of which use multiple identification
numbers. This has resulted in both sanctions and continuing education for suppliers.
However, DMERC officials believe there are insufficient resources to conduct the
necessary program integrity activities. They also expressed frustration in National
Supplier Clearinghouse’s inability to prevent abusive suppliers from obtaining provider
identification numbers. The HCFA is also considering “bundling” ancillary products
such as wound care supplies into the reimbursement for nursing homes.

RECOMMENDATION

A long term solution would require HCFA to bundle services in their Medicare or
Medicaid payments to nursing homes. For example, the nursing home patients that
received wound care supplies would not be separately reimbursed for these supplies
but have them included in the per diem rate paid by Medicare or Medicaid. We
continue to support HCFA’S efforts to pursue a bundling policy. To address the
immediate problems with wound care supplies identified in this report, we recommend
that:

  �    HCFA should target their limited program integrity resources to those areas
       identified as most vulnerable to abuse. This could include edit screens at each
       DMERCS to track such wound care products as tape and hydrogel.

  �    HCFA should continue to monitor wound care activity through 1996 to
       determine if the level of questionable payments continues. If questioned
       payments continue unabated, HCFA may need to reconsider the current wound
       care benefit.




                                             ii


      ——
COMMENT’S
We solicited and received comments on our draft reports from HCFA and other
concerned organizations. The organizations that provided us with responses were the
Health Industry Distributors Association (HIDA), the Health Industry Manufacturers
Association (HIMA), and the National Association for the Support of Long Term
Care (NASL). The full text of their comments is provided in Appendix C.

The HCFA agreed with the recommendations.        In addition, HCFA responded that
they have developed a legislative proposal to require bundling of services, including
wound care supplies, in Medicare and Medicaid payments to nursing homes. They
believe that this may selve as an incentive for nursing homes to more closely monitor
the use of wound care supplies.

The outside organizations commented that they strongly support HCFA’S expansion of
the national coverage policy for wound care supplies and that no reduction in the
current scope of the benefit should be considered, They believe that the DMERCS’
delay in implementing wound care policies and utilization standards after HCFA’S
expansion of the policy was the primary factor in creating an environment ripe for
potential abusive practices.

The outside groups believe there are significant flaws in the methodology we used to
determine the magnitude of questionable billing of wound care supplies. The primary
weakness, they believe, is the “unfair” application of DMERC guidelines to claims that
were not affected by these guidelines.

While we believe the initial lack of DMERC policies without utilization standards for
wound care supplies played a part in allowing abuses to occur, we do not believe it to
be the entire cause of abusive supplier practices. Even without specific utilization
standards, suppliers are supposed to be able to support the medical necessity of the
wound care products they deliver. Some of the examples of questionable billings that
we encountered were not mere misunderstandings of medical policies for wound care.
For example, when suppliers are billing amounts large enough to purchase 12.5 miles
of tape or 5 gallons of hydrogel wound filler in a 6-month period this would fall out of
even the most generous clinical guidelines.

We believe our methodology was sound and consistent with prior OIG efforts to
identify claims that appear questionable. In response to the organizations’ concern
that we used the DMERCS’ proposed guidelines for our review, we used these policies
because we felt the utilization standards they contained would provide us with
information on the scope and nature of the problems with wound care supply claims.
The supply industry had participated in the development of these guidelines and were
generally supportive of them. Furthermore, there were no other non-trade association
guidelines available for wound care supply utilization that were as extensive as the



                                           ...
                                           111
proposed DMERC policies. Finally, we thought this information would be useful to
HCFA and the DMERCS in preparing for the implementation of the policy guidelines.




                                       iv
                         TABLE                     OF CONTENTS

                                                                                                                      PAGE

                    SUMMARY              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODI.KHON               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    � Excessive    utilization ofsupplies            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    � Concentration       of Medicare allowances               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


    � HCFA/DMERCcorrective                   actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


RECOMMENDATIONS                       . . . . . . . . . . . . . ., . . . . . . . . . . . . . . . . . . . . . . . . . ...14


APPENDICES


A     Wound Care                   Guidelines        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


B: Confidence Intewals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C: Agency and Outside Organizations’ Comments                              . . . . . . . . . . . . . . . . . . . . . . . C-1

                         INTRODUCTION

PURPOSE

This report identifies questionable billing practices for wound care supplies under
Medicare Part B.

BACKGROUND

Wound care supplies are fillers or protective covers that treat openings on the body
caused by surgical procedures, wounds, ulcers, or burns. Wound covers are flat
dressing pads. Wound fillers are dressings placed into open wounds to eliminate dead
space, absorb exudate, or maintain a moist wound surface. The Health Care
Financing Administration (HCFA) reimburses for wound care supplies under the
Medicare Part B program. Wound care coverage policy is found in section 2079 of
the Medicare Carriers Manual. The HCFA contracts four DME regional carriers
(DMERCS) to process durable medical equipment claims including wound care
supplies. The DMERCS issue their own guidelines to clarify their coverage policy.

Medicare Part B Allowances for Wound Care Supplies: 1990-1994

There were significant changes in wound care activity between 1990 and 1994.
Medicare Part B allowances were as low as $50 million in 1992 and peaked in 1993 at
$132 million, an increase of 164 percent. The number of beneficiaries that annually
received these supplies ranged from 86,600 in 1993 to as high as 273,300 in 1991. As
a result, allowances per beneficiary varied from $199 in 1990 to $1,526 in 1993.
Between 1993 and 1994 the number of Medicare beneficiaries that received wound
care supplies increased 47 percent.

In 1994, 61 percent of the average allowance per beneficiary was for specialty
dressings. Medicare fee schedule amounts for specialty dressings are as high as $35
for large hydrogel wound covers. Eleven of the specialty wound care products are
reimbursed by Medicare at over $10. Prior to 1992, Medicare reimbursed for wound
care supplies primarily in a single kit payment. These kits were a compilation of
wound care supplies and were reimbursed at $8 each in 1992. Billing for kits was
disallowed in 1992. However, component supplies contained in a kit can still be billed
as individual products. As a result, the number of wound care supplies has increased
over six times from 13 million in 1991 to 81 million in 1994. The table on the
following page summarizes surgical dressing activity for calendar years 1990 through
1994.




                                            1

Table 1. Wound Care Supply Activity      1990-1994


     Activity          1990          1991              1992          1993           1994
   Allowances      $53 million   $87 million        $50 million   $132 million   $98 million
  Beneficiaries      266,400       273,300            117,300        86,600        127,300
 Per Beneficiary       $199          $317              $423          $1,526         $769
 No. of Supplies       N/A        13 million        45 million     69 million    81 million

l%e HCFA Broadims h Coverage Policy for Wound Care Supplies

On March 30, 1994, HCFA expanded its coverage policy for wound care supplies.

The new policy provides coverage for “primary and secondary dressings required for

the treatment of a wound caused by, or treated by, a surgical procedure that has been

performed by a physician or other health care professional.” Primary dressings are

therapeutic or protective coverings applied directly to wounds or lesions either on the

skin or caused by an opening to the skin. These include alginate, foam, specialty

absorptive, hydrogel, hydrocolloid, and composite dressings. Transparent film and

contact layers also serve as primary dressings. Secondary dressings serve a therapeutic

or protective function and typically are needed to secure a primary dressing. Items

such as adhesive tape, roll gauze, and bandages are examples of secondary dressings.


T%e Rim Coverage Policy Was More Restn”ctive

The HCFA national policy and the DMERCS’ policies prior to March 30, 1994 were
more restrictive. Stringent requirements were placed on the type of dressings, length
of treatment, cause of wound, type of provider, and medical documentation. The
DMERCS’ policy before the expansion of the national policy covered only prima~
dressings resulting from a surgical procedure for usually no more than 2 weeks. This
policy stated that “surgical dressings for closed incisions without drainage would rarely
be medically necessary for more than 1 week” and “when an ulcer, traumatic wound,
or burn has had sharp debridement, it will be considered a surgical wound for no
more than 2 weeks from the date of debridement.”

Prior to March 30, 1994, the HCFA national policy would allow dressings to be
covered for treatment of wounds that resulted from sharp debridement (e.g., scalpel,
laser) performed only by physician. The DMERC local policies stated that dressings
for other types of debridement (e.g., mechanical, chemical, autolytic) were not
covered. Wound care suppliers were required by DMERCS to submit a certificate of
medical necessity to document the need for the products. After the policy change in
March 1994, this was no longer required. The table on the following page compares
the wound care supply policy before and after March 30, 1994.




                                               2

Table 2. Comparison of Wound Care Supply Coverage Policies




  Only primary dressings                    Primary and secondary dressings
  Time limits on medical necessity          As long as medically necessary
  Dressings for sharp debridement    only   Any type of debridement
  Limited to physician treatments           Physician and non-physician treatments
  Certificate of Medical Necessity          Certificate of Medical Necessity
  required                                  not required

Cam”er Bomssing of Wound Care Supplies

In June 1992, HCFA issued a final rule designating four Durable Medical Equipment
Regional Carriers (DMERCS) to process all claims for durable medical equipment,
including wound care supplies. The four carriers are the MetraHealth Insurance
Company (DMERC A), AdminaStar Federal (DMERC B), Palmetto Government
Benefits Administrators (DMERC C) and Cigna Healthcare (DMERC D). Effective
October 1, 1993, HCFA began the transition to the DMERC processing of wound
care supply claims. During 1994, 56 carriers also processed surgical dressing claims
before the transition to DMERCS was complete. During the transition, these carriers
did not utilize the DMERC policies; they carriers used their own local policies to
process claims.

l%e DMER(3 Implement a Fee Schedule and Introduce Nw Co&s

Starting in June 1994, reimbursements for wound care supplies were based on a fee
schedule. The DMERCS introduced over 60 codes for wound care products to
implement the fee schedule. Prior to June, less than 20 codes were used to identify
and reimburse dressings. The DMERCS granted a grace period for all but two old
codes submitted through October 1, 1994. During the grace period the DMERC
would crosswalk the old code to the appropriate new code.

l’he DMERC3 Iksue a Draft Policy to ClarijJ Wound Care Coverage

The DMERCS, working with HCF~ developed a policy to clarify the coverage of the
wound care benefit. In January 1995, each DMERC requested comments on these
guidelines. Included in these guidelines are definitive utilization and medical necessity
parameters. In addition, modifiers to the codes have been added to identify the
number of wound sites being treated. The HCFA and DMERCS have evaluated the
comments and have issued a revised policy to be effective October 1, 1995. See
Appendix A for a summary of the utilization guidelines.



                                            3

This change was initiated in part as a response to organizations in the wound care
community that expressed the need for clarification. For example, the Health Industry
Distributors Association in cooperation with the National Coalition for Wound Care,
the National Association of Retail Druggists, and the National Association for the
Support of Long Term Care developed consensus recommendations for improving the
Medicare wound care policy. These changes were recommended prior to the release
of the proposed changes in January 1995.

The General Accounting OfJice Discloses SimilarAbuses

The General Accounting Office (GAO) issued a final report, Medicare: Excessive
Payments for Medical Supplies Continue Despite Improvements (HEHS-95-1 71), in
August 1995 concerning payment controls for Medicare expenditures of durable
medical equipment with an emphasis on wound care supplies. The GAO found a
“lack of system wide controls” which led to abuse in both Part A and Part B. For
example, the number of dressings billed per beneficiary was nearly three times higher
under 29 new wound care codes. They attribute this to the absence of a clearly
defined policy.

Opation   Restore llust TargetsHealth Care Abuse in Five States

Operation Restore Trust is a health care anti-fraud demonstration project developed
within the U.S. Department of Health and Human Services by the Office of Inspector
General, the Health Care Financing Administration, and the Administration on Aging.
Its aim is to coordinate Federal and State resources to attack fraud and abuse in
home health agencies, nursing facilities, and durable medical equipment, including
wound care supplies. The project’s initial focus will be in California, Florida, New
York, Illinois, and Texas.

METHODOLOGY

To asses the nature of questionable billing practices, we interviewed DMERC officials
including medical directors and fraud control personnel. Each DMERC responded to
a questionnaire concerning wound care supply processing guidelines, the nature of
questionable billing practices, and corrective actions taken.

To determine the extent of questionable billing practices, we analyzed a 1 percent
sample of wound care beneficiaries. These beneficiaries received supplies under one
of 87 wound care supply codes in use between June 1994, the start of fee schedule
reimbursements, through February 1995. These claims are maintained in HCFA’S
National Claims History 100 percent Physician/Supplier database. Medicare Part B
allowed $980,270 in wound care supplies for our sample of 1,205 beneficiaries for this
9-month period. Allowed payments include the 80 percent Medicare payment and the
20 percent coinsurance fee billed to the beneficiary.




                                           4

We applied the proposed DMERC draft guidelines to these claims to identi~
questionable billing practices. Although these guidelines were not in force during the
review period, they represent a consensus concerning wound care policy that could be
systematically applied and measured. We assumed the maximum allowable usage each
month for the month in which the supply was billed. We defined a questionable
billing practice as that amount in excess of the utilization guideline. We assumed each
type of wound cover billed represented a wound site. We reported Medicare
allowances above the tolerance levels by type of supply, DMERC, number of
beneficiaries receiving supplies, and supplier. To determine if a link exits among
suppliers suspected of abusive billing practices, we reviewed data from the National
Supplier Clearinghouse (NSC). Under each provider identification number, the NSC
database includes the name of corporate officials, addresses, and provider aliases.

Claims for tape supplies (HCPCS A4454 and K0265) were analyzed differently. We
selected 101 beneficiaries from two groups of a stratified sample of 349 beneficiaries
that received tape. The first strata contained 31 beneficiaries that received $1,000 or
more in tape. The second, 318 beneficiaries that received between $25 and $999 in
tape. We selected all 31 from the first strata and randomly selected 70 beneficiaries
from the second. This sample of 101 beneficiaries represent $73,848.13 or 52 percent
of total allowed dollars in tape claims. For each tape claim, we assumed that the
beneficiary used the maximum monthly allowable usage for each primary and
secondary dressing billed during that month according to the proposed DMERC draft
guidelines. The secondary dressing was allocated the same amount of tape as the
primary dressing. Dressings with an adhesive border were not allocated tape.

We assumed dressings less than or equal to 16 square inches to be 4 inch by 4 inch.
We assumed a 6 inch by 8 inch size for dressing between 16 and 48 square inches and
8 inches by 8 inches for dressings greater than or equal to 48 square inches. We
allocated two inches extra of tape for each side. Therefore, a 4 inch by 4 inch
dressing was allocated 24 inches of 1 inch tape. A 6 inch by 8 inch dressing was
allocated 36 inches and a 8 inch by 8 inch dressing, 40 inches. We applied the current
fee schedule price of $0.12 per 18 square inches to the tape allocated. Each 4 inch by
4 inch dressing used $0.16 in tape. A 6 inch by 8 inch dressing used $0.24 in tape,
$0.27 for a 8 inch by 8 inch dressing. To quanti~ the impact of questionable billing
practices, we projected our findings, by multiplying Medicare allowances above the
proposed DMERC guidelines by 100. Confidence intervals for our projections are
presented in Appendix B.

We compared the results of this analysis with data supplied by DMERC D. In
January 1995, DMERC D required 30 suppliers that had been placed on prepayment
review to submit documentation to support future claims. The DMERC D, with
assistance from nurses in the Wound, Ostomy and Continence Nurses Society,
reviewed 687 claims for 525 beneficiaries from 14 suppliers that continued to submit
wound care claims. The 687 claims averaged $433, $302 of which was for hydrogel
and foam dressings. Almost 60 percent of the wound care supplies billed were for
gauze. However, the allowances for these gauze products represent only 7 percent of

                                           5
all wound care allowances reviewed. The nurses reviewed these documents to
determine the actual type and number of wound care supplies needed for effective
treatment. We applied the DMERC D fee schedule prices to the units billed and the
units allowed to quanti& the effect of their adjustments. We used June 1994 through
February 1995 data to provide unit costs when prices were unavailable in the DMERC
D fee schedule.

Report l%xntadon

This report is one of three reports concerning Medicare payments for wound care
supplies. The second report, Marketing of Wound Care Supplies (OEI-03-94-00791)
describes supplier and nursing home practices that can lead to questionable payments
and examines issues concerning Medicare beneficiaries’ use of wound care supplies.
The third report, Wound Care Supplies: operation Restore Trust Data (OEI-03-94-
00792), consolidates information presented in the other two wound care reports as it
pertain to the five Operation Restore Trust States.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency and is part of Operation
Restore Trust.




                                           6

                                 FINDINGS


QUESTIONABLE PAYMENTS FOR WOUND CARE SUPPLIES MAY
ACCOUNT FOR AS MUCH AS TWO-THIRDS OF THE $98 MILLION IN
MEDICARE ALLOWANCES FROM JUNE 1994 THROUGH FEBRUARY 1995.

Medicare Part B allowed $65 million from June 1994 through February 1995 for 46
million wound care supplies that exceed the proposed DMERC guidelines. This
represents 66 percent of $98 million in Medicare Part B allowances and 57 percent of
the 81 million wound care supplies provided to beneficiaries.

Excessive utilization evidknt in aU wound care p&k3.

Each group of wound care products showed a significant degree of questionable billing
Transparent film led with 80 percent of its activity that exceeded utilization guidelines.
The group with the smallest level, alginate dressings, had 40 percent of the Medicare
allowance and 50 percent of the units that exceed utilization guidelines. The table
below summarizes the excessive allowances and units for each group of wound care
product. The total figures are the amounts that exceeded utilization guidelines, The
percentages represent the portion of the total billings for that group over the standard.

Table 3. Excessive Allowances and Units by Wound Care Produet




          Hydrogel Dressings              $24.8 million     77%      2.4 million    7470
                 Tape                      $9.8 million     68%      5.1 million   68’%0
                 Gauze                     $7.8 million     49%     33.0 million    53%
            Foam Dressings                 $7.4 million     70%      0.9 million    68%
    Specialty Absorptive Dressings         $4.0 million     62%      1.8 million    63%
          Alginate Dressings               $2.9 million     40%      0.5 million    50%
                                                                                           1
            Other Supplies                 $2.8 million     7770     0.7 million    82%
           Transparent   Film              $2.3 million     80%      0.8 million    80%
        Hydrocolloid Dressings             $2.0 million     54%      0.6 million    65%
         Composite Dressings               $0.7 million     7170     0.2 million    69%
             Contact Layer                 $0.0 million     N/A      0.0 million    N/A




                                            7

Four supplies account for almost half of the questionable Mdicare allowances.

Medicare allowances for hydrogel wound filler, tape, a hydrogel dressing wound cover,
and a foam dressing wound cover that exceeded utilization guidelines totaled $31
million. These supplies represent 48 percent of excess allowances but only 15 percent
of the 46 million units that were overbilled. The wide range of prices for wound care
supplies cause this concentration. Medicare allowed an average of $10 for each
hydrogel dressing supply, while gauze products averaged 26 cents each.

A further analysis of tape and hydrogel wound filler illustrates the magnitude of these
questionable billings. From June 1994 through February 1995, $10 million of
Medicare’s $14 million allowance for tape appears questionable. For 95 percent of
beneficiaries in the sample, some portion of their tape expenditures was questioned.
one-quarter of these beneficiaries had at least $1,000 in tape questioned. Applying
tape to 90 4“ x 4“ pads per month, it would take 5 years to consume $1,000.

one beneficiary was charged with $5,290 in tape over a 6-month period, almost $5,000
of which appears excessive. Medicare paid for, but probably did not receive, 66,000
feet or 12.5 miles of one-inch tape. This beneficiary needed only $324 or 2,700 feet in
tape if all the dressings purchased were used to the maximum allowed. This
beneficiary would need to use over 33,000 4“ x 4“ gauze pads to use this much tape, a
30 year supply at 90 pads per month.

Another beneficiary was charged with $11,880 in hydrogel wound filler, $11,533 of
which may be unnecessary. This beneficiary’s record showed payments for 120 units of
one-ounce hydrogel wound filler each month for 6 consecutive months, over 5 gallons.
The proposed guidelines call for three per month or three ounces per wound site,
which should have cost Medicare $347. The guidelines state that “hydrogel filler used
for each wound should not exceed the amount needed to line the surface of the
wound,” not fill the wound cavity.

T%eDMERC D find similar abuses in its review of wound care clizizm.

The findings from the DMERC D review of 687 wound care claims submitted by

suppliers on pre-payment review mirrors the abuses nationwide. The DMERC D

disallowed 61 percent of the 112,000 wound care supplies in its review. As a result, 54

percent of the almost $300,000 in wound care claims were questioned. Tape

accounted for only 5 percent of the charges reviewed by the DMERC as opposed to

15 percent nationally. However, the DMERC also questioned almost two-thirds of all

tape. The table on the following page presents the percentage of the charges and

units submitted for each group of wound care products that were not allowed by

DMERC D.





                                            8

Table 4. Summary of DMERC D Review of Wound Care Claims




            Alginate Dressings
                      37%                   42%
           Composite Dressings
                      56%                   56%
              Foam Dressings
                        52%                   49%
                   Gauze
                            65Y0                  67%
          Hydrocolloid Dressings
                    46V0                  46%
            Hydrogel Dressings
                      54%                   52%
      Specialty Absorptive Dressings
                3070                  32%
                   Tape
                             63%                   63%
             Transparent    Film
                    52%                   51%
              Other Supplies
                        69V0                  64%



ACTIVITY IS CONCENTRATED IN STATES, SUPPLIERS, PLACE OF
SERVICE, AND ONE CARRIER.

Almost two-think of excessive wound care payments was found in eight States.

Eight States account for $42 million or 65 percent of the Medicare allowances that
exceeded the DMERC guidelines. Two States with relatively small Medicare
populations, Puerto Rico and Indiana were included in this group. The other six
States are New York, California, Illinois, Tennessee, Florida, and Louisiana. These
eight States were also responsible for $62 million or 63 percent of the total Medicare
allowances.

l%e fie Opration Restore Dust States account for over one-third pement of the
questioned al.bwances.

The five States targeted by Operation Restore Trust accounted for 35 percent or $22
million of Medicare allowances for wound care supplies that exceeded utilization
guidelines. Non-tape accounted for over $18 million of the questioned payments, tape
approached $4 million. Four of these States, New York, California, Illinois and
Florida ranked in the top seven. The fifth State, Texas, received $1.3 million in
excessive payments. These States had 39,200 beneficiaries that received wound care
supplies. Over 25,000 of these beneficiaries showed some excess utilization.
l%ree-q.umem of excessive payrnenfi in our sample were made to 48 suppliers which
represent 7percent of the supplim in our sample.

Out of the $980,270 in wound care claims in our sample, we found $546,665 in
questionable non-tape payments. These amounts represent actual claims before
projections were applied. Three-quarters of these excessive payments for non-tape
wound care products were paid to 46 suppliers. The excessive Medicare payments to
these suppliers ranged from $2,752 to $91,784. Two other suppliers that received at
least $2,752 in excessive tape payments were not in this group of 46. This total of 48
represents 7 percent of all suppliers in our sample. Fifty-seven percent of the
suppliers in our sample (402 of 699) received some payments for supplies that
exceeded utilization guidelines. One supplier received 17 percent of all excessive
payments for non-tape supplies and 14 percent for tape. This supplier received more
than four times the questionable non-tape payments than the next supplier, and almost
50 percent more for tape.

From June 1994 through February 1995, 71 percent of all Medicare payments for
wound care supplies were made to 48 suppliers or 7 percent of all suppliers in our
sample. These 48 suppliers each received payments of at least $5,000, Conversely,
more than 56 percent of suppliers received payments of $100 or less and in total these
account for less than 1 percent of all allowances. Forty-one of the 48 suppliers were
those previously identified as receiving a high concentration of excessive payments.

Less than 40 pement of beneficiaria resided h SkiUedNuning or Ntig     Facilities but
these beneficituies received over 70 percent of wound care benejh.

Almost 72 percent of Medicare allowed payments for wound care supplies in our
sample was made for beneficiaries that resided in skilled nursing (SNF) or nursing
facilities (NF). This same percentage also applies for beneficiaries in SNFS and NFs
that received non-tape supplies that exceeded utilization guidelines. Only 38 percent
of the beneficiaries in our sample resided in SNFS and NFs. Almost 52 percent of the
beneficiaries lived at home. However, beneficiaries that received excessive non-tape
supplies was almost equally divided between residents of SNFS and NFs and homes.

lk DMERC C allowed almost twice the nationul average per benejichuy and was
responsible for over 40 pezent of questionable wound care payments.

The DMERC C allowed charge per beneficiary for wound care supplies was $1,385, or
almost twice the national average. The allowed charge per beneficiary ranged from
$606 to $832 at the other DMERCS. The DMERC C made over $41 million or 40
percent of all payments for wound care from June 1994 through February 1995. This
was almost twice what was paid by DMERC A and DMERC B, and four times that of
DMERC D.

The pattern is similar for submitted charges. The $81 million submitted to DMERC C
was 36 percent higher than DMERC A and almost five times of what was submitted


                                          10
to DMERCD.        Foreach beneficia~, suppliers submitted charges of$2,l92to
DMERCC, twice the national average. Thetable below summarizes wound care
payments by carrier from our sample. The first group contains the total dollars,
number of beneficiaries, and charge per beneficiary submitted to each carrier in our
sample. The second group contains the allowed amounts for each carrier. Some
beneficiaries received supplies through more than one carrier.

Table 5. Total Wound Care Supply Payments Per Carrier




 DMERC A         $59,317,300    43,800     $1,354     $21,385,200      35,300     $606
 DMERC B         $48,766,300    33,400     $1,460     $21,983,500      26,400     $832
 DMERC C         $80,658,200    36,800     $2,192     $41,420,600      29,900    $1,385
 DMERC D         $16,415,700    23,800      $689      $10,493,400      16,700     $628
    Other        $29.876,600    86,600      $345      $2.744.400       15.000     $183



The DMERC C made 44 percent of the non-tape payments and 49 percent of tape
payments that exceeded utilization guidelines. The DMERC C paid for 29 percent of
the beneficiaries that received excessive non-tape supplies, 43 percent for tape, The
table below summarizes the non-tape and tape payments that exceeded utilization
guidelines by each carrier.

Table 6. Excessive Wound Care Supply Payments Per Carrier




 DMERC A         $9,933,753     18%      $1,960,304    20%         $11,894,057    18%
 DMERC B        $13,228,005     24%      $2,402,453    25?Z0       $15,630,458    24%
 DMERC C        $24,242,717     44%      $4,618,661    4770        $28,861,378    45%
 DMERC D         $5,554,847     1070      $713,710      7910        $6,268,557    10%
    Other        $1,707,097      3%       $97,072        170        $1.804.169     3%




                                           11�
These payments almost double what was paid by DMERC B which was responsible
forapproximately   one-quarter ofexcessive payments. The DMERC A made 18
percent onnon-tape and20percent      oftapepapents   that were questioned. 0nly2
percent of non-tape and 5 percent of tape payments that exceeded DMERC
guidelines were made by DMERC D.

THE HCFA AND DMERCS HAVE TAKEN CORRIKTNE ACTIONS TO
ADDRESS WOUND CARE ABUSES AND CONTINUE TO EXPLORE OTHERS.

Reviked wound care policy to ckzrijj coverage guidelines

The most significant action taken by the HCFA to address abuses in wound care was
the publication of revised a coverage policy. This policy developed along with the
DMERCS, provides specific utilization and medical necessity standards that should
clarify acceptable clinical practices.

% DMERG3 idkntijied 54 abusive suppliem, some of which are the same companies
using thfikrentprovider identification numbem

Through pre- and postpayment reviews, the DMERCS have identified 54 suppliers
suspected of questionable billing practices. The DMERC D identified 30 of these
suppliers; DMERC C, 17, DMERC B, 10, and DMERC ~ 7. Seven suppliers were
identified by more than one DMERC. The 54 suppliers include 21 identified in this
report. The DMERCS require these suppliers to document future claims. The
DMERCS also referred suppliers to the Office of Inspector General for investigation
or suspended their payments. The DMERC A has even dedicated a portion of the
medical review staff to wound care. However, DMERC officials believe they do not
have the resources necessary to perform the proper level of review needed to assure
sufficient control. In certain situations, questionable billing was attributed to a
misunderstanding of wound care policy. In these cases, DMERCS provide the
necessa~ education to clari~ the acceptable guidelines.

In total, 81 suppliers were identified as being suspected of questionable billing
practices. Of the these suppliers, 33 were identified by DMERCS, 21 by both the
DMERCS and the Office of Inspector General (OIG), and 27 solely by the OIG,
These 27 suppliers were part of the 48 suppliers identified as receiving three quarters
of the excessive payments in our sample. Some of the suppliers had common
identifying information linking them together. One group of three suppliers shared a
common official. Another group of two suppliers also shared common officials. One
group of four suppliers shared a common address. Another two suppliers shared a
common address. The DMERCS expressed frustration in National Supply
Clearinghouse’s inability to prevent this abuse.




                                            12

i%e HCFA k pumuing altemathxx to the cuwent cost reirnbumement rnecharukn.

The HCFA continues to pursue a systematic solution to the abuses presented in this
and other reports through a requirement for “bundling” of services in nursing home
settings. Under such an approach, the nursing home would be responsible for
providing commonly needed services to residents of that facility, rather than allowing
for separate billing by suppliers. Such a solution would eliminate the incentives
suppliers now have to aggressively seek out patients in nursing homes and market
their products inappropriately in those settings. It would also ensure that nursing
homes take on appropriate responsibilities for services and supplies delivered to
residents in their facilities.




                                           13

                   RECOMMENDATIONS


Mter Medicare's e~ansion of thewound care benefit in March 1994, it is not
surprising that recent activity shows an increase in the number of beneficiaries. This
coupled with the use of costlier specialty products have resulted in an increase in
Medicare expenditures. In both January and February 1995 wound care activity was
higher than in any month in 1994. With an increase in wound care activity and the
level of abuse identified in this report, the need for stricter controls is evident. We
believe the new guidelines should provide the framework for those controls. We also
support ongoing activity in HCFA and the DMERCS to educate providers and
suppliers about proper billing for such supplies. We hope the information contained
in this report is helpful in their efforts.

A long term solution to wound care supply abuses would require HCFA to bundle
services in their Medicare or Medicaid payments to nursing homes. For example, the
nursing home patients that received wound care supplies would not be separately
reimbursed for these supplies but have them included in the per diem rate paid by
Medicare or Medicaid. We continue to support HCFA’S efforts to pursue a bundling
policy. We believe the level of abuse we found in skilled nursing and nursing facilities
under Medicare Part B enhances this position.

To address the immediate problems with wound care supplies identified in this report,
we recommend that:

  �	   HCFA should target their limited program integrity resources to those areas
       identified as most vulnerable to abuse. This could include edit screens at each
       DMERCS to track such wound care products as tape and hydrogel.

  �	   HCFA should continue to monitor wound care activity through 1996 to
       determine if the level of questionable payments continues. If questioned
       payments continue unabated, HCFA may need to reconsider the current wound
       care benefit.

AGENCY AND OUTSIDE ORGANIZATIONS                   COMMENT’S

We solicited and received comments on our draft reports from HCFA and other
concerned organizations. The organizations that provided us with responses were the
Health Industry Distributors Association (HIDA), the Health Industry Manufacturers
Association (HIMA), and the National Association for the Support of Long Term
Care (NASL). The complete text of their responses is included in Appendix C. A
summary of the comments and our response follows.




                                           14

HCFA CommenB

The HCFA agreed with the recommendations.        In addition, HCFA responded that
they have developed a legislative proposal to require bundling of services, including
wound care supplies, in Medicare and Medicaid payments to nursing homes. They
believe that this may serve as an incentive for nursing homes to more closely monitor
the use of wound care supplies. The HCFA also provided us with a technical
comment concerning the need to emphasize the difference between national and
regional coverage policies on wound care supplies.

0u13ide Oganizalions’ Comments

The organizations commented that they strongly support HCFA’S expansion of the

national coverage policy for wound care supplies and that no reduction in the current

scope of the benefit should be considered. They believe that the DMERCS’ delay in

implementing wound care policies and utilization standards after HCFA’S expansion of

the policy was the primary factor in creating an environment ripe for potential abusive

practices. While the organizations support the need for implementing DMERC

medical policies for wound care supplies that reflect current clinical practice, they also

believe that some of the utilization standards in the DMERC policy to be

implemented on October 1, 1995 are incorrect and need to be resolved before

implementation occurs. The NASL and HIMA also stated that the DMERC policy

prior to March 30, 1994 that we discuss in the background section of our report was

never fully implemented.


All these groups believe there are significant flaws in the methodology we used to

determine the magnitude of questionable billing of wound care supplies. The primary

weakness, they believe, is the “unfair” application of DMERC guidelines to claims that

were not affected by these guidelines. Secondly, the outside organizations feel the

OIG’S failure to determine the appropriateness of wound treatment on an individual

basis does not allow for an effective analysis. For example, the number of wound

covers applied to a patient with multiple wounds may exceed the DMERC guideline

for a single wound cover. In addition, NASL cited that the OIG did not account for

the nature of the dressing, i.e., primary or secondary, which also affects the frequency

of changes. The NASL also believes that only the largest claims were targeted for

review which skewed the findings.


The HIDA and HIMA believe that the new DMERC guidelines will have a positive

effect in addressing any abuses in wound supplies that may exist. The HIDA wanted

the OIG to highlight that most suppliers do not engage in questionable billing practice.

The NASL and HIMA recommend a future review of wound supply activity to “ensure

the proper integrity of the benefit.” The HIDA recommends (1) the use of

Certificates of Medical Necessity for abusive suppliers and overutilized items, (2) the

establishment of a technical review committee representing suppliers, patients, and

clinicians to work with HCFA and the DMERCS in analyzing claim activity, and (3)

bundling most medical supplies into the nursing facilities Part A claim only for the first



                                            15
100 days. Finally, HIM believes HCFAand OIGshould give themedicalpoliq
guidelines a chance to take effect before they reach any conclusion on the
recommendation regarding bundling of wound care products.

OIG RESPONSE

While we believe the initial lack of DMERC policies without utilization standards for
wound care supplies played a part in allowing abuses to occur, we do not believe it to
be the entire cause of abusive supplier practices. Even without specific utilization
standards, suppliers are supposed to be able to support the medical necessity of the
wound care products they deliver. Some of the examples of questionable billings that
we encountered were not mere misunderstandings of medical policies for wound care.
For example, when suppliers are billing for amounts large enough to purchase 12.5
miles of tape or 5 gallons of hydrogel wound filler in a 6-month period this would fall
out of even the most generous clinical guidelines.

We have made changes in the report to reflect the comments that HCFA made about
clari~ing the difference between national and local policies. We have also added
additional language in the report to emphasize that during the phase-in of the
DMERCS, the previous carriers were still processing claims using their own policies.

However, we believe our methodology was sound and consistent with prior OIG
efforts to identi& claims that appear questionable. We did not target only the largest
claims for our review, we selected a statistically valid random sample of all wound care
claims. In response to the organizations’ concern that we used the DMERCS’
proposed guidelines for our review, we used these policies because we felt the
utilization standards they contained would provide us with information on the scope
and nature of the problems with wound care supply claims. The supply industry had
participated in the development of these guidelines and were generally supportive of
them. Furthermore, there were no other non-trade association guidelines available for
wound care supply utilization that were as extensive as the proposed DMERC policies.
Finally, we thought this information would be useful to HCFA and the DMERCS in
preparing for the implementation of the policy guidelines.

For individual claims, we assumed each type of wound supply used on a patient was
medically necessary. It was the utilization of each type of wound supply that we
reviewed. It is possible, as suggested by outside organizations, that what appears to be
excessive utilization could be explained by the same type of dressing being used on
more than one wound. However, the opposite is also the case. Various kinds of
dressings could have been used on only one wound.

As we noted in this report, DMERC D reviewed a sample of billings for wound care
supplies. They did determine the actual number and type of wound care supplies
needed for effective treatment. Based on the findings of the medical review, they




                                           16

disallowed 61 percent of the claims. In addition, the General Accounting Office found
extensive overbilling in its review of wound supplies,

Our data was intended as an early warning to HCFA about the scope of potential
abuse concerning wound care supplies.




                                          17

                                           APPENDIX                          A


          WOUND CARE SUPPLY UTILIZATION                                               GUIDELINES
                       OCTOBER 1, 1995

HCPCS    WOUND CARE PRODU(X                                                                      STANDARD


K0196   Alginatedressingwoundcover, without adhesive, 16 sq. in. or less                         llday

K0197   Alginate dressing wound cover, without adhesive, > = 16 sq. in. e = 48 sq. in.           Vday

K0198   Alginate dressing wound cover, without adhesive, more than 48 sq. in.                    I/day

K0199   Alginate dressing wound filler, per 6 inches                                             I/day


K0203   Composite dressing wound cover, with adhesive, 16 sq. in. or less                        3/weelr

K0204   Composite dressing wound cover, with adhesive, > = 16 sq. in. < = 48 sq. in.             3iweek

K0205   Composite dressing wound cover, with adhesive, more than 48 sq. in.                      3fweek


K0206   Contact layer, 16 sq. in. or less                                                        I/week

K0207   Contact layer, > = 16 sq. in. <= 48 sq. in.                                              Vweek

K0208   Contact layer, more than 48 sq. in.                                                      liweek


K0209   Foam    dressing   wound   cover, without adhesive, 16 sq. in. or less                   3/week

KO21O   Foam    dressing   wound   cover, without adhesive, > = 16 sq. in. < = 48 sq. in.        31week

K0211   Foam    dressing   wound   cover, without adhesive, more than 48 sq. in.                 3Jweek

K0212   Foam    dressing   wound   cover, with adhesive, 16 sq. in. or less                      3/week

K0213   Foam    dressing   wound   cover, with adhesive, > = 16 sq. in. e = 48 sq.in             3~eek

K0214   Foam    dressing   wound   cover, with adhesive, more than 48 sq. in.                    3~eek

K0215   Foam    dressing   wound   filler, per gram                                              I/day


K0216   Gauze   non-impregnated, without adhesive, 16 sq. in. or less                            31day

K0217   Gauze   non-impregnated, without adhesive, > = 16 sq. in. < = 48 sq. in.                 3/day

K0218   Gauze   non-impregnated, without adhesive, more than 48 sq. in.                          3/day

K0219   Gauze   non-impregnated, with adhesive, 16 sq. in. or less                               I/day

K0220   Gauze   non-impregnated, with adhesive, > = 16 sq. in. < = 48 sq.in.                     llday

K0221   Gauze   non-impregnated, with adhesive, more than 48 sq. in.                             I/day

K0222   Gauze   impregnated, without adhesive, 16 sq. in. or less                                llday

K0223   Gauze   impregnated, without adhesive, > = 16 sq. in. c = 48 sq. in.                     I/day

K0224   Gauze   impregnated, without adhesive, more than 48 sq. in.                              Vday

K0228   Gauze   impregnated, without adhesive, 16 sq. in. or less                                I/day

K0229   Gauze   impregnated, without adhesive, > = 16 sq. in. <= 48 Sq.in.                       Vday

K0230   Gauze   impregnated, without adhesive, more than 48 sq. in.                              I/day

K0263   Gauze   elastic, all types, per linear yard                                              same as primary

K0264   Gauze   nonelastic, per linear yard                                                      same as primary

K0266   Gauze   impregnated, any width, per linear yard                                          same as prima~


K0234   Hydrocolloid   dressing    wound   cover, without adhesive, 16 sq. in. or less            3~eek

K0235   Hydrocolloid   dressing    wound   cover, without adhesive, > = 16 sq. in. < = 48 sq. in. 3jweek

K0236   Hydrocolloid   dressing    wound   cover, without adhesive, more than 48 sq. in.          3/week

K0237   Hydrocolloid   dressing    wound   cover, with adhesive, 16 sq. in. or less               3~eek

K0238   Hydrocolloid   dressing    wound   cover, with adhesive, > = 16 sq. in. < = 48 sq. in.    3/week

K0239   Hydrocolloid   dressing    wound   cover, with adhesive, more than 48 sq. in.             3/week

K0240   Hydrocolloid   dressing    wound   filler, paste, per fluid ounce                         3/week

K0241   Hydrocolloid   dressing    wound   filler, dry form, per gram                             3/week





                                                           A-1

HCPC?3    WOUND CARE PRODUCT
                                                                    STANDARD

K0242    Hydrogel   dressing   wound   cover, without adhesive, 16 sq. in. or less
              Vday
K0243    Hydrogel   dressing   wound   cover, without adhesive, > = 16 sq. in. < = 48 sq. in.
   I/day
K0244    Hydrogel   dressing   wound   cover, without adhesive, more than 48 sq. in.
            llday
K0245    Hydrogel   dressing   wound   cover, with adhesive, 16 sq. in. or less
                 3/week
K0246    Hydrogel   dressing   wound   cover, with adhesive, > = 16 sq. in. c= 48 sq. in.
       3&+eek
K0247    Hydrogel   dressing   wound   cover, with adhesive, more than 48 sq. in.
               3/week
K0248    Hydrogel   dressing   wound   tiller, gel, per fluid ounce
                             3/month
K0249    Hydrogel   dressing   wound   filler, dry form, per gram


K0251    Specialty absorptive dressing wound cover,
         without adhesive, 16 sq. in. or Iess                                                    I/day
K0252    Specialty absorptive dressing wound cover,
         without adhesive, > = 16 sq. in < = 48 sq. in.                                          Vday
K0253    Specialty absorptive dressing wound cover,
         without adhesive, more than 48 sq. in.                                                  I/day
K0254    Specialty absorptive dressing wound cover,
         with adhesive, 16 sq. in. or less                                                       llevery other day
K0255    Specialty absorptive dressing wound cover,
         with adhesive, > = 16 sq. in c = 48 sq. in.                                             l/every other day
K0256    Specialty absorptive dressing wound cover,
         with adhesive, more than 48 sq. in.                                                     l/every other day

K0257    Transparent film, 16 sq. in. or less, each dressing
                                    3fweek
K0258    Transparent film, > = 16 sq. in. < = 48 sq. in.
                                        3iweek
K0259    Transparent film, more than 48 sq. in.
                                                 3/week

K0154    Wound pouch, each
                                                                      3/week
K0261    Wound filler, not elsewhere classified, gel/paste, per fluid ounce
                     I/day
K0262    Wound filler, not elsewhere classified, dry form, per gram

A4460    Elastic bandage, per roll
                                                              ljweek
K0265    Tape, all types, per 18 sq. in.
                                                        per wound cover
A4454    Tape, all types, all sizes
                                                             per wound cover




                                                            A-2

                                       APPENDIX         B


                                     CONFIDENCE INTERVALS


We reported our projected totals by multiplying 100 by the point estimates in our
samples. The point estimates represent the total allowance, number of supplies, or
number of beneficiaries. The tables below include confidence interval columns. The
number provided in this column is the semi-width of the confidence interval for each
of the projected totals. The semi-width is the standard error of the projection
multiplied by 1.96 when computing confidence intervals at the 95 percent level. The
semi-width added to or subtracted from the estimated mean or total (projection)
provides a 95 percent confidence interval. The table title numbers below correspond
with the table numbers in the report.

Table 1. Wound Cam Supply Activily   1990-1994




                                                 B-1

Table 3. Exeesak Alhmanees and Units by Wound Care Pmduel




II                                 I Total         I   +/- $1,812,399     I   $6,249,390      I    +/- 718,681        I       2,849,300     II

     Specialty Absorptive
                                    Questionable       +/- $1,432,297         $3,963,916           +1- 559,430                1,768,200
          Dressings
                                    Percentage               +/- 6%                62%                +1- 6%                       63%




                                    Total              +/-   $1,322,270       $3,613,564           +/- 289,025                    909,000
       Other Supplies
                                    Questionable       +/- $1,110,985         $2,792,247           +/- 261,352                    748,600
                                    Percentage               +/- 18%               77%                +/- 8%                       82%




1!                     Total

                               I
                                                       +/- $18,109,615        $98,026,991          +/- 9,200,087             80,928,100
                                                                                                                                            JI

II                                 Tape            I
                                                   I
                                                       +/- $1,494,300     I
                                                                          I
                                                                                 $9,026,991   ]
                                                                                              I

                                                                                                                 Cannot Project             II


II       Questioned

                                   Non-Tape            +/- $12,696,195        $54,666,420          +1- 5,468,348             40,982,000     I



                                                                          B-2

Top Four Wound    (hre .SUppka That Exceded       Utilimtion Guidelines




         Hydrogel filler - K0248/KO148KE
         Hydrogel cover - K0244/KO148KD                           +/- $6,988,253                           $21,149,221
       Foam dressing cover - K0209/KO151KB

                 Tape - A44541K0265                               +/- $1,494,300                               $9,792,200



Wound Care Mivity - Eight Stak




IINon-Tape -8 States

     Tape -8 states
                          +1- $17,514,890

                                       included
                                                  $61,703,540     +/- $12,418,648

                                                                    +/- $705,562
                                                                                      $37,017,607

                                                                                       $5,142,581
                                                                                                           +/- 3,012

                                                                                                           +/- 3,788
                                                                                                                              31,900

                                                                                                                               17,600
                                                                                                                                        I




Wound Care Activity - Fm (lpemtion Restcue Trust States




  Non-Tape -5 Statea      +/- $9,930,713          $35,640,150     +/- $5,686,759      $18,552,330

     Tape -5 States                    included                    +/- $1,151,600      $3,698,300
                                                                                                       m


Table 5- Total Wound Care SupplyPaymentsper Carrier




                                      Submitted         +/- $5,205,336       $80,658,330            +/- $532                $2,192
           DMERC      C
                                      Aflowed           +1- $3.034.259       $41.420.600            +/- $272                $1.385




                                                                B-3

Table 6- EmxasiveWound Care SupplyPaymentsPer Canier




                                                   B-4
              APPENDIX          C




AGENCY   AND OUTSIDE   ORGANIZATIONS’   COMMENTS




                       c-1
   @coma’
 *a+   %
+.”               DEPARTMENT    OF HEALTH&      HUMAN   SERVICES                  tiealt~   Care F;mncing   Adminitiration
:
i
 ?.
  %,+
      #
    +Q,.	
     -2                                                                           The Administrator
                                                                                  Washington,   D.C,    20201




            ~Am          =F27KMi
                                                    w w
            FROM           Bruce C. Vk&ck
                                            v
                           Administrator

            SUBJECT        CMfLceof I.uspectm (kmeml (CIIG) Draft Reports on Questkmable
                                                                                      Medicare
                           Payments for Wound Care Supplies” (OEI-03-94-00790)

            TO	            JuneGibbsIkown
                           liwpector(3em2ral

            We reviewed the subject report which contains information on mcme      pqmen~         for
            woundcaresupplies.

            Our detailedcmuments    on the report findings md recommendations are attached for your
            consideration, Thank you for the opportunity m review and comment on this report.
            Pkase m-n.tact us if you would like to discussOUI mmments.

            Attachment
            Health Care l?i.uanciwAtistration    (H@’A) Co~~@ts on
                   @fke of InspectorGexIeral  (010) DraftReuort
            46
             Questionable Medicare Paments for Wound Care Surmlies”
                                 @EI-04-944X1790)


OIG Recommendation                                      A




HCFA shouldtarget %nitedprogramintegityresourcesto thoseareasidentifkdaSmost
w.dnembkto abuse.ThiscouldincludeeditscreensateaohDurableMedicalIlquipment
RegionalCarrier (DMERC) to track suchwoundcareproductsastapeandI@ogel.

HCI?A Response

We Gcmmr. FICFAhas taken a number of speeific actions to target pro= iu*f@Y
resources to thoseareasmost vulnerable
                                     to abuse.For example, HCFA reqpires that     d
Medicarecarriersmaximkepm-            lxotetim by focusingand identi      medical
feview efforts on areaswhere services being billedhavesignificantpotentialto be
md.icdly urmect?sstuy  and excessive. The DMERCS direct their rudieal review efforts
to monitortheutilization  of woundcaresupplies.TheDhlt311Cs     havedevelqed M
HCFA has revieweda revigedRegional Medical Review Policy (R.MPR) fix surgkd
dressingswhich is scheduled to & implemented    in oetober 1995. With this policy, we
believetheKMERCS will be &t@r able to control @e appropriate utilization and
coverage of surgical dressings. In dditio~ I-ICFAhas developed a Legislative ppowd to
require bundlingof skillednursingfacilitiesandnursingfacilitiesservicestht b _
wouldrequire thebundling    of payment forwound   cm q@.ks ~ M@GIMC fUId
Medimidpaymentsto INJ.Hing     homes, T& mays-        = ~ i=five     for nMS@ homes
to mom. closely monitor the usc of woundcaresupplies.

CXGReeommendatiq

HCFA should eontinu.eto monitor wound care activity through 19% to d~          ifti
level of questionable paymenis eontinnes. If questionable payments umtkkue *ate&
HCFAmayneedto reconsiderthecurrentwoundcarebenefit.
Page 2

HCFA Rcsuonsq

We concur. HCFA andtheDMERCS will continue to monitorwoundcamactivity
throu@ 1996, Mhough we do not believe it would be appropriate     to c~c  ournational
surgicaldressingpolicy, we do agreethatwe should reevaluate mu medical review
claims processing eflbrts if questionable payments continue unabated The
implementation of the revised 1?;!R will assist the 13Ml?RCsin ensuring appropriate
coverage and utilization of surg.ml dressings,

Technical C cmlments

It k impm-tant to Wk tie di.fl’mmce between the national cov~ge and regional coverage
of policies cmsurgicsl dressings. HCl?A’Snational pcdky for surgical dressings was
more restrictive prim to the Mu& 1994 revision, * ~mt appears to WxdhSe
I-ICFA’Snational @Yeragepoliw with de ~&.fERCRMPR Prior to March 30, 1994,
section 2079 of Medicare Gwriers Manual did limit surgicai dressk.g coverage ti ~~
dressings required as the result of a surgicalprocedure pm-formed by aphysician.
However,themedicalnecessity time limits as well as the CertMcate of Medical
Necessitys@.mission mqaent          were imposedby the DMERCS throughtheir RMHG.
                                                   +i!:!l!iil

                         HE4L TFi INDUSTRY DISTRIBUTORS ASSOCIATION
                        Serving Med!cal     Products Distributors&        Home Care Com,oanies Since 1902




  September 19, 1995


  June Gibbs Brown

  inspector General

  7>epartrnent of Health and Human Semites

  330 Independence Avenue, SW

  Washington DC 20201


  Dear Ms. Brown:

  I. INTRODUCTION

“	 The Health Industxy Distributors Association (HIDA) is pleased to comment on the draft
   reports on wound care supplies, entitled “Que~”onaZdeMedicare Payments for Wwnd
   Care Supplies, “ “Miw2eting of Wwnd Care Supplies,” and” Wound Care Supplies:
   Operation Resiore Tmst Data,” issued by the Office of the Inspector General (OIG).
   HIDA is the national trade association of home care companies and health and medical
   product distribution firms. Created in 1902, HIDA now represents over 900 home care
   companies and wholesale and retail medical product distributors with nearly 2000
   locations. Pursuant to a physician prescriptio~ HIDA members provide durable medical
   equipment prosthetics, orthotics, and mppiies (DMEPOS) seMces to Medicare
   beneficiaries who are being treated in their homes and to beneficiaries residing in nursing
   homes.

  II. STATEMENTS IN RESPONSE TO DRAFT REPORTS

  The following are statements we have in response to your three&                                         wound care reports.
  More detailed discussion of these points follow:

  Q	 ~     DMERCS DELAY IN DEVELOPING SURGICAL DRESSINGS MEDICAL POLICIES
      WITH APPROPRIATE UTILIZATION AND MEDICAL NECESPJ’I’YPARAMETERS WAS
      THE PRIMARY FA~OR                  IN CREATING AN ENWRONMXNT RJPE FOR POTENTIALLY
      ABUSIVE ACHVllTES.

  �   ~  REVISION OF SECXION 2079 OF~  MEDICARE
                                              CARRIERSlw#UnJAL
      EXPANDING THESURGICfi XIRESSTNGSB~    WASBASEDONSOUNDCLXNXCAL
      DECISION
             MAKING.pATIENTSSHOULDNOTBEINJEOPARDY   OF LOSING A BENEFIT
      DUE TO THE FAILURE OF THE GOVHWMENT TO IMPLEMENT TIMELY UTILIZATION
      AND MEDICAL NECESSARY PARAMETERS                                �




           66 Canal Center   Plaza,   Suite 520,   Alexandria,   VA 22314.1538     .   703-549-4432   .   FAX 703-549-6495
   THE OIG UNFAIRLY APPLKESDMERC DRAFT GUIDELINES WHICH WILL NOT BE IN
   EFFECI’ UNTIL OCTOBER 1, 1995 TO IDEN’ITFY QUESTIONABLE BILLING PRAC1’ICES.
   IMPLEMENTATION OF NEW MEDICAL POLICY GUIDELINES MUST BE GIVEN A
   CHANCETO TAKE EFFECX”BEFORE CONCLUSIONS PERTAINING TO APPROPRIATE
   BILLING CAN BE REACHED.

   THE OIG SURVEY PRESENTEDWLEA.D~G              ~    o~-s~~       Q~s~oNs     To
   NURSING HOMES AND BENEFICIARIES.

   THE OIG SHOULD SURVEY SUPPLIERSTO OIWAIN A FAIR DEPICTION OF THE
   MARKETPLACE BEFORE ISSUING THE FINAL REPORTS

   ~        OIG INCORRECTLY IMPLIES THAT LEGITIMATE MARKET-DRIVEN               SUPPLIER
   SERVICES ARE INAPPROPRIATE.

   THE OIG SHOULD GIVE GREATER EMPHASIS TO ITS FINDING THAT THE
   PROBLEMS ARE LIMITED TO         A SMALL   MINORITY OF SUPPLIERS AND NURSING
   FACIIXITES.



III. ANALYSIS OF CONCERNS

A. Survey Process And Ouestions
At the onset, HIDA would like to express its disappointment in the manner in which these
reports were developed and presented. The OIG wound care surveys which were mailed
to nursing facilities and beneficiaries were one sided and misleading. Many of the
questions directed at the nursing homes and the beneficiaries are phrased “has a supplier
[or supplier representative] evef’ or “have you ever.” These questions are leading and
ambiguous and if answered “yes,” would result in an unfavorable portrait of the supplier
even though the practice may have occurred once in the course of ten years.

Despite these misleading and one-sided questions, the OIG still found that the problems
identified were limited to a very few suppliers, concentrated in a few states, and involved a
limited number of nursing kilities. The OIG concluded that almost two-thirds of
“excessive” wound care payments were found in eight states and that three-quarters of
“excessive” payments were made to 48 suppliers, 7 percent of the sample. The surveys
clearly reflect that the vast majority of suppliers are operating their businesses in a
responsible manner. This point must be emphasized in the final reports.
B. Sudier     Services
We are concerned that many of the questions seem to be critical of the valuable services
which suppliers provide in the normal course of business. Supplier provide critical
&nctions which hold down or eliminate costs the nursing tkility would incur including the
following:
  .	 BiIIing\coIIection ~tities  requked togenerate patient spdcprodu~u@tion
     iniiormation for payment of a product ilom payers for Medicare Part & Pti B and
     private
  .	   EDI,ar   Co& Technology to support order processing product hand@k pacmfk
       billing and collectio% and labor efficiency through time and motion study

  .	   Delive@Transpor@tiondmento~          A&nagement activities related to the movement of
       a product to the facility, within a facility ;%arcode, inventory managemen~ storage)
       and activities required to send and receive product order information for the facility
       and for individual residents
  .	   Value-A&d     Services including providing classes to nurses and clinicians for CEU
       credits on product availability and appropriateness for clinical objective

  These services are essential benefits that customers receive, and nursing fidities expect to
  receive, from suppliers in the marketplace and should be recognized and acknowledged by
~ the OIG.

  In this report, there are numerous examples where the OIG has failed to acknowledge the
  ~es of necessary services which suppliers provide. For example, question #l 5 of the
  nursing home .swvey asks the following: “Have supplier represen~”ves ever helped you
  aktennine which patients in your facility qualfy for Me&care reimbursement of wound
  care supplies?” Roughly 32 percent of nursing facilities responded “yes”. What is not
  stated is the fact that “ifthe supplier is billing Medicare for the supplies, the supplier has the
  responsibility to know Medicare’s billing requirements. The nursing facility frequently asks
  the supplier if a particular patient’s condition meets the Medicare coverage requirements.
  In this instance the supplier has helped the nursing facility determine if the patient qualifies
  for Medicare reimbursement. This help is a positive semice, not a negative one, and should
  be cited in your reports accordingly.

   Another exampleoccurswhen the OIG implies in the report(s) that supplier access to
   patient charts is inappropriate. Page seven of the ‘M2.rketing of Wound Care Sup@ef’
   report states the following:
           “Wound care suppliers have requestedto review medical recordsin 17 percentof nursinghomes.
           Mhm6~tititie               -nm~tim*for           tim —*kti~           . the
           eligibilityofpadents,viewthe physiciano-     nxord meabmntprogreudomandto gather
           supportingdwumenmo    .onfor billingpurpmes.”
   Medicare frequently reminds suppliers that they are ultimately responsible for insuring that
   the supplier’s claims are accurate and medically necessary. A responsible supplier would
   thus ask for verification that supplies bfled to Medicare are indeed medically necessary
   and used by the patient via access to nursing facility patient charts. It should also be noted
   that the new DMERC surgical dressing medical policy will require suppliers “to have a
   mechanismfor determiningthe quantityof dressings that the patient is actually using and
   to adjusttheir provision of dressings accordingly.”
  C. i%e DMERC Process

  The OIG should emphasize in the reports that the new DMERC process is critical to a

  successful Medicare program. It is easy to lose sight of the fact that the DMERCS have

  been iidly in place only since October 1, 1993. Wh.h Ml time Medical Directors

  developing very strict physician practice guidelines defining medical necessity for medical

  supplies, including the development and publication of specific limits on how many units

  of medical supply a particular Medicare beneficiary can receive, inappropriate over-

  utilization has and wilJ be curbed. This controlled DMERC environment is the best model

  for Medicare control of the progra~ particularly in comparison to nursing home cQst

  reports.


  The problem that has occurred with surgical dressings was that the DMERCS failed to act
  in a timely manner to implement DMERC medical policies with definitive utilization and
  medical necessity parameters. The !ack of these definitive guidelines was the prime factor
  causing abusive billing practices.

,,	 The OIG correctly acknowledges in their reports that the DMERCS have developed a
    policy to ciari@ the coverage of the wound care benefit. This policy is expected to be
    eff’ve    October 1, 1995. While HIDA has requested delay in implementation of the
    policy until cefiain details are resolved, HIDA has long advocated that the development of
    consensus DMERC surgical dressings medical policies is a necessary solution to
    addressing potential fraud and abuse.

  D. Ihe OIG Unfairlv AudiedDA4ERC         Drafi Gu iaklines Which Are Not In Effect
  W    is perplexing is the fact the OIG in its Wmnd Care Supplies: Operation Restore
  That and Queti”onable Medicai Paymentifor Wnmd Care Supplies reports “applied the
   proposed DMERC dratl guidelines to these claims [claims analyzed for purposes of the
   reports] to ident@ questionable billing practices.” The OIG is thus developing conclusions
   on what products “exceeded utilization guidelines” based on a policy that wasn’t in effkct
   during the time period studied (June 1994 through Febrwuy 1995). Further, we question
   the OIG’S assumption that one type of wound cover equals one wound site. A patient with
   multiple wounds coul~ and many times does, use the same type of wound cover for
   treating more than one wound. This assumption by the OIG led to an overstatement of
   how many wound care products were unnecessary since it didn’t account for the fact the
   product could be used for more than one wound.

   HIDA ‘uges the OIG to allow the new DMERC surgical dressing guidelines to be given a
   chance to take effkct before reaching any definitive conclusions. The product utdization
   guidelines combined with the billing modifiers, which identi& the number of wounds on
   which a particular product is being use~ should create fiture data which can be
   meaningtidly analyzed. The draft OIG reports do not provide accurate data because they
   were based on a policy not implemented.
  W. HIDA RECOMMENDATIONS

  H.IDA is interested in working with the DMERCS, HCF& the OIG, nursing homes,
  beneficiaries and others to ensure that the surgical dressigs benefit provides necessary
  care to beneficiaries without any Medicare tiudulent abusive practices. In addition to
  revising its fln.aireport to address the concerns raised in this statemen~ HIDA offers the
  following recommendations. We are interested in meeting with you to discuss how best to
  implement them.


  A. CMN’S For Abusive Sutmliers And Overutiiized?tems
   First, we agree with the OIGS recommendation to HCFA that they “target their limited
   program integrity resources to those areas identified as most vulnerable to abuse.” This is
   precisely why HIDA has strongly recommended that those suppliers placed on a list by the
   Secretary of Health and Human Services (“Secretary”) in accordance with Section
   1834(a)(l S)(B)(i) and (ii) of the Social Security Act (amended by the Social Security Act
“	 Amendments of 1994) be subject to the certificate of medical necessity (CMN) physician
   completion requirement in Sections 1834(j)(2)(A) and 1834a(16). Section 1834(a)(15)@)
   states that the “Secretary may develop and periodically update a list of suppliers of items
   for which payment may be made under this subsection with respect to whom (i) the
   Secretary has found that a substantial number of claims for payment under this part for
   items fhrnished by the supplier have been denied on the basis of the application of section
   1862(a)(l) ~iterns and services. ..are not reasonable and necessary for the diagnosis or
   treatment of illness or inju@]; or (ii) the Secretary has identified a pattern of
   overutilization resulting from the business practice of the supplier.”

   It is imperative that HCFA and the DMERCS develop and make available to suppliers the
   criteria under which a supplier would be placed on this prepayment list, and the
   procedures suppliers would follow to appeal any such determination. Suppliers must be
   afforded appropriate due process before being placed on such a list.

   Further, suppliers should be subject to the CMN physician completion requirement for
   those, if any, items which are placed on a list by the Secretary in accordance with Section
    1834(a)(l 5)(A) of the Social Security Act. Section 1834(a)(15)(A) states that “the
   Secretary may develop and periodically update a list of items for which payment maybe
   made under this subsection that the Secretary determines, on the basis of prior payment
   ~erience, are frequently subject to unnecessary utilization throughout a carrier’s entire
   semice area or a portion of such area.” ~ for example, it is deemed that surgical dressings
   have been overutilized then a medical necessity form should be required. Once aga@ it is
   imperative that HCFA and the DMERCS establish a fair process, with appropriate due
   process considerations, to ensure that overutilized items are determined in a fhir manner.
B. Technical Review Committee     To Review D&a
Secon& HIDA believes the OIGS recommendation to the DMERCS to “edit screens...to
track such wound care products as tape and hydrogel” is an important step in ehhmting
any potential Iiaudulent and abusive activity. However, the DMERCS ad HCFA can and
sh~~d do more in this area. As we have stated on numerous occasions, HID-Ais eager to
work with the durable medical equipment regional carriers (DMERCS) and Health Care
Fiicing Administration (HCFA) in tracking and analyzing claims processing utilizdon
data in order to ensure the appropriate administration and interpretation of the DMERCS
surgical dressings medical re~ew- policies (as well as all other medical polices). This could
be accomplished if the DiM!ZRCs an&or HCFA e~blisheda            technical review committee
whose pn:mary respom”bility wouki be to rew”ewand andjrze W resulting>om the
surg”cal &essings Mealcare beneJt. The committee should consist of a wide range of
representatives of organizations and patients, including suppliers, clinicians, claims
processors, and patientdconsumers. The committee would suggest specific prepayment
screens and refinements to the medical review policies based on post payment audits and
otherrelevantinformation. The committee co~d generate regul& reports which would be
the basis for positive changes to the surgical dressings policy.

For example, it would be particularly helpfid to analyze the number of exceptions to the
utilization parameters. For example, if 80 percent of chirns require additional
documentation in order to appropriately exceed the utilization parameters set forth in a
particular provision of the policy, it would then be legitimate to question whether that
parameter is appropriate.

   Consoli&ted Billin~ ProDosal
Thir& HIDA supports efforts to consolidate all billing for medical supplies into a nursing
iicility’s Medicare Part A cost report for billing which occurs during the Medicare
covered nursing hcility stay. Therefore, only the nursing fmility muld bill for these
services and supplies during the Medicare covered stay through its Part A cost report. To
avoid any disruption of medically necessary supplies for the beneficiary, certain technical
changes to Part A rules also need to be made. AUenteral and parented nutrition products
should be recognized as part of a nursing facility’s ancilkuy cat% not routine costs. HIDA
strongly opposes any changes to a supplier’s ability to bfl Part B for medical supplies
fi.unished to Medicare beneficiaries after the first 100 day Part A stay.
     V. CONCLUSION           ‘

     HIDA appreciates the opportunity to comment on the OIGS drafl wound care reports.
     Please contact myself or Stephen M. ~   Ass&ant Director of &mrnrnent Relations,
     Regulatory MWrs at (703) 549-4432 if you have any questions or comments.

                                                                           .. .   .


     shcw/                       .



     Cara C. Bachenheimer, Director
     Government Relations-


4’   cc:	   George Grob, OIG
            Penny Thompsoq OIG
            Rob Vko, OIG
            Judy Bere~ HCFA
            S. Wayne Kay, HIDA
            Craig Jefies, HIDA
                              IHMA

                              .,. AI Tli   \Du   STRY   MANuFACTURERS   ASSOC   #, ’old




September 20, 1995



The Honorable June Gibbs Brown

Inspector General

Department of Health& Human Services

330 Independence Avenue, S.W.

Room 5246

Washington, D.C. 20201


Dear Ms. Brown:


The Health Industry Manufacturers Association (HIMA) is pleased to be asked by your office to

respond to the three draft reports concerning wound care supplies. We will be limiting our

comments to the two reports, “Questionable Medicare Payments for Wound Care Supplies” and

“Wound Care Supplies: Operation Restore Trust Data.” The Health Industry Manufacturers

Association (HIMA) is a Washington, D. C.-based national trade association representing more

than 700 manufacturers of medical devices, diagnostic products, and health information systems.

HIMA’s members manufacture more than 90 percent of the nearly $50 billion of health care

technology products purchased annually in the United States.


First and foremost, HIMA firmly believes that the decision of HCFA to expand the wound care

benefit was the medically correct decision and no reduction in the current scope of the benefit

should be entertained. The previous limitations applied to wound care coverage were not in the

best interests of Medicare beneficiaries. At the same time, we have been on record both verbally

and in written correspondence with HCF~ the DMERC medical directors and the OIG that

appropriate management controls needed to be integrated in the implementation of the wound

care benefit to avoid inappropriate or fraudulent practices. HIMA has repeatedly expressed

concern that the filure to implement these controls contemporaneously with the expansion of

the wound care benefit would lead to problems with abusive or possibly fraudulent activities.



Chronology of HIk?4’s Role in the Expansion of the Wound Care Benejit

Since 1992, IIIA@ in collaboration with the National Pressure Ulcer Advisory Committee
(NPUAP) and the Wound Ostomy Continence Nurses Society (WOCN), has worked with both
HCFA and the DMERC medical directors to present proposals for updating HCPCS codes and
medical coverage policies that would reflect current clinical practice and wound care technology.
In fact, in March 1993, HCFA asked HIN@ NPUAP and WOCN to present a consensus

                                  World Leaders           in i4ea/fh Care /nnovaf/on
The Honorable June Gibbs Brown

September 20, 1995

Page 2


proposal and educational seminar for the DMERC medical directors to define surgical dressing
products and their clinically appropriate usage from a mu[ti-disciplinary health care pro.tider
perspective. Even at that time, our proposal included recommendations that addressed potential
fraud and abuse.1

In 1993, the DMERC medi -al directors released their draft coverage policy on surgical

dressings. m         along with dozens of other clinical and provider associations commented on

the restrictiveness of the policies.2 The comments included “the two-week coverage limitation of

surgical dressings was unretilistic and unsupported; the debridement criteria significantly deny

appropriate and necessa~ treatments, the definition of surgical wounds was narrow and

inappropriate and that classification and use specifications of dressings were inappropriate and

limit the proper treatment of wounds.”


The DMERC medical directors noted that they were prevented from making any substantive

changes in the draft policies due to the restrictive nature of Section 2079 of the Medicare

Carriers Manual, which they consider to be national policy. Over 30 beneficiary, clinician and

industry groups met with HCFA Coverage Director Bob Wren in September 1993 to present a

draft of a proposed revision to this policy. After a meeting with HCFA Administrator Bruce

Vladeck and Dr. Helen Smits in December 1993, agreement was reached on a rewrite of section

2079.


Since that time, m       in tandem with clinical and supplier associations, has worked with
HCFA and the DMERC medical directors on the rewriting of section 2079, and the current final
medicrd policy on surgical dressings. Furthermore, the National Coalhion for Wound Care (of
which HIMA is a member) gave recommendations on utiliition parameters for surgical
dressings to help curb fraud and abuse.3 These controls were not implemented.

In February 1995, HIMA met with HCFA and OIG staff and representatives of clinical and
supplier associations to address the DMERCS’ allegations of fraud and abuse in the wound care
benefit.4 HCFA and OIG staff were reminded that, due to the delayed implementation of the
final DMERC coverage policy, utilization and quality assurance standards were not in place.
This lack of controls were a factor in the allegations of abuse in the industry.



Specifzc Comments

Any review of claims data must acknowledge the fact that the revisions of section 2079 policy
created a new wound care benefit. Comparisons of data before and after the date of
implementation are inherently suspect because the benefits are not comparable.

In reviewing the draft report “Questionable Medicare Payments for Wound Care Supplies,”
HIMA has concerns over the methodology used to chronicle the “excessive utilization evident in
The Honorable June Gibbs Brown
September 20, 1995
Page 3

all wound care products.” We believe that the OIG has taken inappropriate clinical utilization
parameters to review clinical practice retrospectively. We submit that to take utilization
parameters fioin a final coverage policy that is not yet in force and apply tliem to those claims is
totally inappropriate and can only lead to erroneous conclusions about utilization. This situation,
coupled with the fact that HIN@ along with many of the clinical and supplier associations,
believes that sf:me of the utilization parameters in the final Dh&RC cover ~.gepolicy (e.g.,
hydrogel) are incorrect makes for a dramatic overstatement by the OIG concerning the utilization
of wound care products.

Along these lines, in reviewing Appendix C of the draft report, “Wound Care Supplies:
Operation Restore Trust Data,” we would like to offer the following specific points:

        �
                In the hydrogel category, the alleged excessive overutilization was based on the

                new utilization parameter of three ounces in 30 days, whereas the old utilization

                parameter was at least once a dy. This is one of the utilization parameters in the

                October 1995 final policy that we are in disagreement with the DMERC medical

                directors and have sent them comments to this effect.


        �
                In the gauze category, we question what products were used in the

                K02 18/A4200KD category, because to our knowledge no products exist in retail

                catalogs (i.e., Briggs, Suburban Ostomy) that fit this categoxy.


        �
                In the A4323 category, there was $14,684 paid for saline solutio~ which is a non-
                covered item. We question why the DMERCS paid this since it was a non-
                covered item.

Furthermore,   in regard to tape, we wish to make the following points:

        �
                Previous medical policy, including transitional policy, reimbursed for “tape, any
                type, any size” on a per roll basis, without regard to utilization on wounds. In
                effect, a small length roll of tape, e.g., 1 x 18 inches was reimbursed at the same
                rate as a standard length roll of e.g., 1.5“ or 2“ x 10 yards. The old and
                transitional policies encouraged overpayment for small rolls, but underpayment
                for the longer rolls and overutilization of tape. The new medical policy, with
                reimbursement by the” 18 square inches,” will greatly reduce incentives for
                overutilition and overpayment. This change just went into effect in June, 1995,
                afier the OIG audit, and so none of the OIGs sample includes this important
                change. Our expectation is that a similar sample audit conducted in 1996 will
                show significant improvement in the area of excessive payment for tape.

                It is our suspicion that a large amount of excessive payment for tape came about
                in conjunction with the use of kits, where supplies, including tape, have been
The Honorable June Gibbs Brown

September 20, 1995

Page 4


               billed separately. Since the draft language of the new medical policy has become
               available this summer, with its denial of coverage and payment for wound care
               kits, it is our feeling that kit suppliers and the biller/supplisrs which they have
               semiced, are changing their practices. We feel that this will result in fewer
               situations of excessive allowances and utilization of tape for surgical dressing
               applications.

Finally, we would like to clari~ some of the statements made in the first few pages of the report
entitled, “Questionable Medicare Payments for Wound Care Supplies.” On page 1, it states that
“In 1994, 61?40of the average allowance per beneficiary was for specialty dressings, up from
40’%in 1992.” We believe that this statement is misleading to the reader, since in 1992, these
specialty dressings were not covered in the Medicare program. The next line states, “These
specialty dressings are priced as high as $35 for large hydrogel wound covers.” Again, we take
exception to this since the appropriate verb should be “reimbursed by the HCFA fee schedule”
and not “priced.” Furthermore, in rechecking HCFA’s calculations for various codes, such as
this one, we determined that the fee schedules were in many cases incorrect, due to arithmetic
errors. This particular one, we estimated to be $25.65 compared to HCFAs calculation of
$35.00.

On page 2, the draft states, “the former HCFA policy covered only primary dressings resulting
from a surgical procedure for usually no more than two weeks.” In reality, this DMERC policy
was never in effect, and as I indicated earlier in our chronology of HIMA involvement in
surgical dressing policy, there was such an outcry fi-om the beneficiary and clinical community
concerning the lack of patient care in the proposed policy, that the policy was changed.
Furthermore, before DMERC consolidation occurred, local medical coverage policy determined
coverage to be anywhere Iiom two weeks to unlimited, depending on medical necessity. In fact,
clinical associations (WOCN and NPUAP) have always recommended that the duration of
coverage should be governed by indkidual medical necessity rather than predetermined limits. 1



Conclusion

As we stated in our introduction, we applaud HCFA for its decision to expand the wound care
benefit. The benefit is medically sound and reflects the latest knowledge of wound care practice
and technology. We do agree with the OIG and HCFA that the new guidelines set forth in the
final DMERC coverage policy should provide the ilamework for the controls. We believe that
HCFA and the OIG should give the medical policy guidelines a chance to take effect before they
reach any conclusions regarding the fate of wound care coverage. This includes any
recommendations regarding the bundling of wound care products. Agaiq since the reports are
based upon a flawed analysis of da~ the reports are not meaningful and should not be released.
The product utilization guidelines combkd with the billing modtiers which identfi the
number of wounds on which a particular product is being used, and the addhional medical
The Honorable June Gibbs Brown

September 20, 1995

Page 5


necessity criteria outlined in the policy should create fhture data which can be meaningfidly
dissected. HIMA recommends that perhaps the OIG should reexamine the database a year after
the benefit is in place to ensure the proper integrity of the benefit.

We appreciate having the opportunity to comment.

Sincerely,




Marcia Nusgart, R. Ph.

Associate Vice President, Home Care


Enclosures

MNlbcj
Reference List


1.	    Recommendations   on Surgical Dressing Codes, March 23, 1993, NPUAP, WOCN,
       HIMA to HCFA and the DMERC medical directors.

2.	    June 11, 1993 letter to DMERC medical directors from over two dozen provider,
       supplier, clinical and manufacturer associations concerning the DMERC medical
       coverage policy on surgical dressings.

3.     NCWC proposal to DMERC medical directors on surgical dressing proposal.

4.	    November 21, 1994 HIMA letter to the Honorable June Gibbs Brown, to convene a
       meeting concerning alleged fraud and abuse in the wound care industry.
la
 4 ,4
           NATIONAL
P. O. Box 4857
                             ASSOCLXTION
                 c AUSTIN, TEXAS c 78765   �
                                                      FOR THE SUPPORT
                                               5121451-0059
                                                                                     OF LONG
                                                              “ 4214 MEDICAL PARKWAY,SUITE 209   �
                                                                                                       TERMC
                                                                                                     AUSTIN, TEXAS   �




             September 20, 1995

             Ms. June Gibbs Brown

             i .~spector General

             U.S. Department of Health and Human Services

             330 Independence Ave., SW Room 54246

             Washh@on, D.C. 20201


             Dear General Brown:

                     I am writing on behalf of the members of the National Association for the Support
             of Long Term Care (NASL), an organization of companies dedicated to the improvement
             of services for the long term care patient. NASL has been very active in the development
             of the surgical dressing benefit through its membership in the National Coalition for
             Wound Care (NCWC) and its own efforts. We are pleased to have this opportunity to
             comment on the drafts of the three reports, “Questionable Medicare Payments For Wound
             Care Supplies”, “Marketing of Wound Care Supplies”, and “Wound Care Supplies:
             Operation Restore Trust Data”. We are, however, troubled by the short time period given
             for the submission of these comments. These reports are quite detailed and a more
             thorough response could be offered if more time were available, This letter contains some
             general comments. Attached to this letter is a list of bullet points identi@ing the most
             serious analytical short comings we find with the reports.

                     In reviewing these reports, we are forced to conclude that there are serious flaws
             in the analytical methodology used to arrive at the report’s conclusions. Several of the
             medical policies used to analyze the extent of questionable billing are the subject of
             considerable controversy in the wound care community at large. Moreover, it is
             consensus within the clinical community and within industry that each wound must be
             examined individually to determine the appropriateness of the surgical dressings used to
             heal the wound. The quantity of dressings necessary to heal a wound varies significantly
             based on a patient’s healing rate. Accordingly, we believe that the general conclusions
             contained in the reports are seriously flawed.
        Putting aside the doubts we have about the methodology, we wish to point out
that the reports raise issues concerning the surgical dressing benefit that our organization
has been working with HCFA and the DMERCS to address for some time. Since the
surgical dressings benefit was formally revised to reflect current clinical practice, NASL
has been working with the HCFA and the DMERC medical directors to develop and issue
medical policies implementing the benefit. We advucated the development of utilization
parameters for the various types of dressings to be tised, in order to identi~ those
suppliers whose claims appeared to exceed the reasonable needs of the patient. We also
advocated the restriction of the use of khs in the sale of surgical dressings in order to limit
the excessive sale of products contained in such kit.’..In fact, we provided suggested
language to the DMERCS for their consideration. As the reports correctly point out, the
lack of clear policies had contributed to problems existing in the surgical dressing
program. The overwhelmingly majority of these problems have been resolved in the past
two years.

         The reports appear to show that there is sufilcient information available to identify
a small group of suppliers whose practices are questionable. This demonstrates the
efilcacy of using utilization guidelines to identi~ outliers. It also shows that the problems
identified are limited to relatively few suppliers who have commanded a significant
percentage of the market geographically.      More than adequate enforcement mechanisms
exist to discipline these suppliers who are abusing the system. We strongly believe in such
an approach to control the abuse of the program.

        The revised surgical dressings benefit, which took effect March 1, 1994, was
undertaken because of a clear recognition by the HCFA that a more clinically appropriate
surgical dressing benefit was an important benefit of the Medicare program. In the
absence of such a program, beneficiaries with serious wounds, such as Stage 4 decubitis
ulcers, would be deprived of the benefits of appropriate wound healing products. Whale
the reports concentrate on what is perceived to be a serious abuse of the system, we must
not lose sight of the efficacy of the benefit in relieving the suffering of these patients ad
avoiding the necessity for acute care of intractable wounds.

        We hope that these comments are helpfil to you. If additional time is granted, we
will endeavor to supply more detail than contained herein. Thank you again for thk
opportunity.

Sincerely,




Tom Kowalskl
Executive Director

TK/kh




Ghhs, 9/20/95,   respome
                                                                                                  2
                                     BULLET POINTS

“QUESTIONABLE MEDICARE PAYMENTS FOR WOUND CARE SUPPLIES”:

     The prior restrictive HCFA coverage poli .y was never filly implemented by the
     various carriers. Policy prior to 1994 as determined by the different carriers varied
     from the very restrictive policy described in this report to the policy of Pennsylvania
     Blue Shield, which allowed for coverage Gfa surgically debrided wound until it healed.
     The limit of the coverage of surgical dressings to a two week period post surgery was
     included in the proposed medical policies of the new DMERC medical directors and
     never really took effect. The rewrite of Section 2079 was the result of thk destructive
     and overly restrictive policy.

     The dollar utilization show in Table 1 is particularly instructive when analyzed in light
     of the above. The policies of the different carriers obviously led to higher utilization as
     shown by this table.

     Table 2 is incorrect. The policy referred to as existing prior to March of 1994 at best
     describes a policy that was in place for a limited number of providers depending on
     their carrier prior to the DMERC. Since this restrictive policy never applied to all
     providers, it is impossible to use it for any comparison on utilization.

     The methodology of the analysis of the surgical dressing claims is fatally flawed in
     several ways. One serious error is the use of the DMERC guideline for amorphous
     hydrogel wound filler. It is understood that this guideline is based upon an average
     wound size of 1 centimeter by 1 centimeter. In order to determine the proper amount
     of hydrogel needed to treat any given wound, it is absolutely necessary to know the
     size of the wound. Since this report dld not examine the pertinent information on each
     wound analyzed, its conclusions with regard to hydrogel are of no value whatsoever.
     The same criticism can be applied across the board to the use of the DMERC
     guidelines for this analysis. The DMERCS themselves concede that the guidelines
     must be applied on a wound by wound basis. It is far too simplistic to analyze
     utilization in the manner used in the report.

     Two assumptions of the analysis must also be questioned. First, the report assumed
     each type of wound cover represented a separate wound site. This assumption
     appears to disregard the use of Primary and Secondary dressings. A second
     assumption, that tape is used on both Primary and Secondmy dressings, is also in
     error.




Gihhs, 9{20195, response
                                                                                               3
.	   In choosing the claims to analyze the utilization of tape, the investigators used a
     methodology pre-ordained to result in overutilization. They appear to have
     deliberately chosen those claims for which the highest possible billings were submitted.

�	   The contention that excessive utilization is evident in all wound care products is
     clearly in error. In using the DhlERC guidelines, the investigators failed to recognize
     the dispute that indust~ and the clinical community have concerning the utilization
     parameters for secondary dressi~~gs.While the DMERC policies would appear to limit
     the frequency of change of some secondary dressings to a lower limit than the primary
     dressing, this limit is clinically ui.sound. Clearly, secondary dressings must be changed
     when the primary dressings are changed. By applying this unsound policy, a finding of
     overutilization is predetermined for many secondary dressings and for many primary
     dressings when used as secondaries. This is the reason for the findings on page 8 that
     foam dressings and hydrogel wound filler are heavily overutilized. This combination
     of dressings is very popular among the clinical community and the use of a foam
     secondary is crucial in allowing the hydrogel to maximize its dwell time. The
     guidelines promulgated by the DMERC medical directors would result in erroneous
     findings both as to the hydrogel for the reasons stated earlier and as to the foam
     dressings which, when used as a primary, have a lower change frequency than
     hydrogel.

.	   The investigators should take no comfort in the findings of DMERC D, since the
     examination conducted by that DMERC was of suppliers whose conduct was already
     in question. No general conclusions concerning the industry as a whole can be drawn
     or supported by findings related to individual suppliers that have been singled out
     because of their prior conduct. The conclusions concerning the amount of tape used
     are probably inaccurate.

.	   During the period analyzed, the payment for tape was based on a per roll charge. The
     rolls most commonly used contained only three feet of tape and not ten yards.
     Accordingly, the analysis appears to be in error as to the amount of tape provided.

.	   The fact that the five Operation Restore Trust States account for a high proportion of
     the wound care supplies is only logical since these are the states with the largest
     Medicare market.

.	   Since the SNF or NF population is at highest risk for decubitis ulcers, it is not
     surprising that this population uses a disproportionate   amount of the surgical dressing
     benefit.

.	   Since the revision the surgical dressing benefit (~2079), NASL has been urging
     DMERC medical directors to issue clear medical policies for the surgical dressing
     benefit. Now that this is finally and belatedly coming about, OIG has used these
     policies to investigate, in a look back, past practices. This is absurd. OIGS
     description of its retrospective confirmation of this past state of events using the



Gibbs. 9i20f95, response
     collaboratively developed criteria on highly selected data as a “report” based on a
     random claim sampling in the executive summa~ is misleading. OIG’s
     recommendations are infected by this error--prospective implementation of the same
     medical review criteria, as planned and revised where appropriate, is the right solution.

           “MARKETING OF J70UND CARE SUPPLIES”

.	   NASL objected to the wording of the questionnaire from which this data was taken.
     At that time, we pointed o,:t that the wording of the questionnaire seemed to be biased
     and unlikely to develop mc,mingfil data.

.	   Overall, we feel that the results of this survey show that the majority of suppliers and
     facilities act responsibly and avoid abuses.


           “WOUND CARE SUPPLIES: OPERATION RESTORE TRUST DATA”

.	   This report seems to simply take the conclusions of the “Questionable Payments”
     report and rehash them for the Operation Restore Trust states. All of the points made
     above for that report apply to this one.




Gibbs, 9\20/95, response
